Appendix 1

Case: 18-56527, oo/28/2020, ID: 11806000, DktEntry: 135, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

AUG 28 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

PAUL VIRIYAPANTHU,

Nos. 18-56527
19-55482

Plaintiff-Appellant,
v.

STATE BAR OF CALIFORNIA; et al.,
Defendants-Appellees.

D.C. No.
8:17-cv-02266-JV S-JDE
Central District of California,
Santa Ana
ORDER

Before: O’SCANNLAIN, TROTT, and N.R. SMITH, Circuit Judges.
The panel has voted unanimously to deny the petition for rehearing and to
recommend denial of the petition for rehearing en banc. The full court has been
advised of the petition for rehearing en banc, and no active judge has requested a
vote on whether to rehear the matter en banc. Fed. R. App. P. 35.
The petition for rehearing and the petition for rehearing en banc are
DENIED.

Appendix 2

Case: 18-56527, 07'?3/2020, ID: 11763101, DktEntry: 131-1, Page 1 of 5

NOT FOR PUBLICATION

FILED
JUL23 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PAUL VIRIYAPANTHU,
Plaintiff-Appellant,

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

18-56527

D.C. No.
8:17-CV-02266-JV S-JDE

v.
MEMORANDUM*
STATE BAR OF CALIFORNIA; STATE
OF CALIFORNIA; KENNETH E. BACON;
JOHN NELSON; RICHARD GREEN;
ORANGE COUNTY BAR ASSOCIATION,
Defendants-Appellees.

PAUL VIRIYAPANTHU,
Plaintiff-Appellant,

No.

19-55482

D.C. No.
8:17-CV-02266-JV S-JDE

v.
STATE BAR OF CALIFORNIA; STATE
OF CALIFORNIA; ORANGE COUNTY
BAR ASSOCIATION; KENNETH E.
BACON; JOHN NELSON; RICHARD
GREEN,
Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
*
This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

Case: 18-56527, ^7/23/2020, ID: 11763101, DktEntry:J31-1, Page 2 of 5

James V. Selna, District Judge, Presiding
Submitted July 21, 2020**

Before: O’SCANNLAIN, TROTT, and N.R. SMITH, Circuit Judges.
The Orange County Bar Association ruled against Paul Viriyapanthu in a fee
arbitration, requiring him to pay $4,313.00 to a former client. Viriyapanthu refused
to pay and so the State Bar of California suspended his license. He then initiated
this lawsuit in which he seeks $6,000,000.00 in compensatory damages for
discrimination in violation of the Americans with Disabilities Act and the Fourteenth
Amendment, discrimination in violation of 42 U.S.C. § 1981, and a conspiracy in
violation of the Sherman and Clayton Acts. He appeals from the dismissal of the
entire case. The facts are known to the parties and we do not repeat them here.
I
The district court properly dismissed Viriyapanthu’s damages claims made
under Title II of the Americans with Disabilities Act, 42 U.S.C. § 12132. The State
of California, State Bar of California, and Kenneth Bacon (in his official capacity)
are each entitled to sovereign immunity. Hirsh v. Justices ofSupreme Ct. ofState of
Cal., 67 F.3d 708, 715 (9th Cir. 1995). Viriyapanthu’s theory of a Fourteenth

**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
2

Case: 18-56527,

'23/2020, ID: 11763101, DktEntry: ;■ *1 -1, Page 3 of 5

Amendment violation does not justify the abrogation of such immunity.

The

conduct allegedly in violation of the Fourteenth Amendment (racial discrimination
and bias) is not made actionable by Title II, which only prohibits discrimination “by
reason of [a] disability.” 42 U.S.C. § 12132; see United States v. Georgia, 546 U.S.
151,159 (2006) (recognizing Title II’s abrogation of state sovereign immunity when
the same conduct violates both Title II and the Fourteenth Amendment).
The district court appropriately exercised its discretion in denying
Viriyapanthu’s ex parte application for reconsideration of denial of leave to amend
to state a claim under § 504 of the Rehabilitation Act, 29 U.S.C. § 794. Such an
amendment would be futile because § 504 proscribes discrimination “solely by
reason of [a qualified individual’s] disability” and Viriyapanthu was alleging racial
discrimination and a failure to accommodate his financial position. Id.
II
The district court correctly dismissed Viriyapanthu’s § 1981 claim against the
Orange County Bar Association. The OCBA is entitled to immunity for decisional
acts taken within its jurisdiction. Sacks v. Dietrich, 663 F.3d 1065, 1069-70 (9th
Cir. 2011). It is therefore immune from liability for its fee award and for its alleged
non-enforcement of its own disclosure rules. Viriyapanthu’s assertion that the
OCBA discriminated against him in judicial nominations was not raised before the
district court and is therefore waived. See Bolker v. Comm ’r, 760 F.2d 1039, 1042

3

Case: 18-56527,

r~r '23/2020,

ID: 11763101, DktEntry: 1*1-1, Page 4 of 5

(9th Cir. 1985).
Ill
The district court correctly dismissed Viriyapanthu’s claim that John Nelson
and Richard Green conspired in restraint of trade in violation of the Sherman Act,
15 U.S.C. § 1, and the Clayton Act, 15 U.S.C. § 15. The substance of his claim is
fraudulent conduct. However, Viriyapanthu’s “averments of fraud” failed to meet
Fed. R. Civ. P. 9(b)’s particularity requirement. See Vess v. Ciba-Geigy Corp. USA,
317 F.3d 1097,1103-06 (9th Cir. 2003). All that remains are conclusory accusations
of conspiracy, which fail to state a claim. BellAtl. Corp. v. Twombly, 550 U.S. 544,
556-57 (2007).
The denial of leave to amend was an appropriate exercise of discretion
because it was done at Viriyapanthu’s request. See Rick-MikEnters., Inc. v. Equilon
Enters. LLC, 532 F.3d 963, 977 (9th Cir. 2008).
IV
Because we affirm all of the district court’s rulings, Viriyapanthu’s request
for reassignment to a different district judge upon remand is moot.

1 Viriyapanthu’s Amended Motion to Take Judicial Notice, ECF No. 75 (Dkt.
No. 18-56827), ECF No. 34 (Dkt. No. 19-55482), is GRANTED with respect to
documents 2, 5, and 7 and DENIED with respect to documents 1, 3, 4, and 6.
Viriyapanthu’s Supplemental Motion to Take Judicial Notice, ECF No. 120 (Dkt.
No. 18-56827), ECF No. 79 (Dkt. No. 19-55482), is GRANTED with respect to
documents 9 and 12 and DENIED with respect to documents 8,10, and 11. See Fed.
R. Evid. 201(b), 902(5). Viriyapanthu’s Motion to Take Judicial Notice, ECF No.
4

Case: 18-56527,07/23/2020, ID: 11763101, DktEntry: 131-1, Page 5 of 5

AFFIRMED.

57 (Dkt. No. 18-56827), ECF No. 15 (Dkt. No. 19-55482), is DENIED as moot.
Viriyapanthu’s Motion to Take Judicial Notice, ECF No. 62 (Dkt. No. 18-56827),
ECF No. 21 (Dkt. No. 19-55482), is DENIED as moot.
The State Bar’s Motion to Take Judicial Notice, ECF No. 100 (Dkt. No. 1856827), ECF No. 59 (Dkt. No. 19-55482), is GRANTED.
5

Appendix 3

Case 8:17-cv-02266-JVS-JPrV Document 156 Filed 10/26/18 P^qe 1 of 8 Page ID #:3920

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

8:17-CV-02266-JVS (DFMx)

Title

Viriyapanthu v. State of CA. et al.

Present: The Honorable

Date

October 26,2018

James V. Selna

Karla J. Tunis/Gabriela Garcia
Deputy Clerk

Not Present
Court Reporter

Attorneys Present for Plaintiffs:

Attorneys Present for Defendants:

Not Present

Not Present

Proceedings:

(IN CHAMBERS) Order Regarding Motion to Dismiss

Defendants the State Bar of California (“State Bar”) and Kenneth Bacon (“Bacon”)
(collectively, “Defendants”) moved to dismiss Plaintiff Paul Viriyapanthu’s
(“Viriyapanthu) First Amended Complaint (“FAC”). (Mot., Docket No. 131.)
Viriyapanthu opposed. (Opp’n, Docket No. 148.) Defendants replied. (Reply, Docket
No. 150.) Viriyapanthu filed a Notice of Errata1 (Docket No. 149) and objections.
(Docket No. 151.) Defendants requested that the Court strike Viriyapanthu’s Notice of
Errata. (DocketNo. 150 at 1-2, n.l.)

I. Background
In 2007, Cesar Viveros (“Viveros”) contracted with attorney Kenneth Teebken
(“Teebken”) to perform certain immigration work. (FAC, Docket No. 112 ^ 28.)
Viveros made payments to Teebken for this work. (Id) In 2008, Teebken ceased
practicing law and entered into an agreement with Viriyapanthu to take over portions of

1 In Viriyapanthu’s Notice of Errata, he stated, “Any and all references to ‘OCBA’ is erroneous
and a typo. The opposition is being made to the State Bar and Kenneth Bacon’s Motion to Dismiss and
any reference to the opposition as to the OCBA should be replaced with Defendants Kenneth Bacon and
the State Bar of California.” The Court strikes this portion of the Notice of Errata because
Viriyapanthu’s proposed changes do not correct merely typographical errors, since the OCBA
references in the First Amended Complaint (“FAC”) and the Opposition are related to another single
party in the case, not multiple defendants. Further changing references from “OCBA” to “Kenneth
Bacon and The State Bar of California” raises additional substantive issues because Viriyapanthu would
be making allegations that these parties conducted the underlying arbitration and is nonsensical. (Reply,
Docket No. 150 at 1-2, n. 1.) See Bias v. Movnihan. 508 F.3d 1212, 1224 (9th Cir. 2007).
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 1 of8

Case 8:17-cv-02266-JVS-JPr' Document 156 Filed 10/26/18 P»ne2of8 PagelD#:3921

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

8:17-cv-02266-JVS (DFMx)

Title

Virivapanthu v. State of CA. et al.

Date

October 26, 2018

his immigration practice. (Id. 30.) Viveros was contacted to allow Viriyapanthu to
continue prosecuting his immigration application, (hi) Viveros was given an unsigned
retainer agreement. (Id.) In 2009, Viveros resigned from his employer, who was
sponsoring his immigration application. (Id. f 32.) At that point, his employer sponsored
immigration application was not transferable. (Id.) Viveros wanted a refund of the fees
he had paid. Viveros contacted Nelson, who instructed him to complete and submit an
OCBA arbitration form. (Id. 33.) Viveros initiated an attorney fee arbitration against
Viriyapanthu under California’s Mandatory Fee Arbitration Act2 (“MFAA”). (Id. 51;
FAC, Docket No. 112-3, Ex. 14.) Viriyapanthu alleges that OCBA members had an
agreement that members acting as arbitrators would rule in favor of other members in
order to prevent non-member attorneys from practicing law. (FAC Tf 34.) Viriyapanthu
alleges that Nelson informed Viveros of the agreement. (Id. ^ 35.) Nelson represented
Viveros during the arbitration proceeding. (Id. 37.) In the proceeding, Viriyapanthu
asked Nelson if he had any pre-existing relationships with the arbitrators or the bar
association, which he denied. (Id. f 38.) Viriyapanthu alleges that this was a false
representation. (See id. f 44.) In 2010, the OCBA arbitration panel awarded $4,313 to
Viveros. (FAC, Docket No. 112-3, Ex. 11.)
Viriyapanthu filed a petition to vacate the arbitration award, which was denied.
(FAC, Docket No. 112 f 39.) Green represented Viveros in the state court proceedings.
(Id.) In April 2013, the trial court’s decision was affirmed on appeal. (Id.; FAC, Docket
No. 112-3, Ex. 15.) Then Viriyapanthu filed a petition for review with the California
Supreme Court, which it denied. (Compl., Docket No. 1141.)
Viriyapanthu alleges that Green contacted Bacon to request the State Bar’s
involvement to enforce the arbitration award. (Id 42.) Bacon presides over the State
Bar MFAA program. (Id. ^ 17.) Bacon’s assistant notified Viriyapanthu of his intent to
move to place him on involuntary inactive status and suspend his license, fid, 43.)

2 The MFAA authorizes the State Bar Board of Trustees to create a system and procedure for
arbitrating fee disputes in arbitrations conducted by local bar associations. Cal. Bus. & Prof. Code §
6200, et seq. When a MFAA arbitration is initiated by a client, fee arbitration is mandatory. Cal. State
Bar R. 3.501(A). The MFAA prohibits awarding affirmative relief in such arbitrations; local bar
association arbitrators may only award a refund of fees and costs previously paid. Cal. Bus. & Prof.
Code § 6203(a).
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 2 of 8

Case 8:17-cv-02266-JVS-JP^ Document 156 Filed 10/26/18 Psqe 3 of 8 Page ID #:3922

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

8:17-cv-02266-JVS (DFMx)

Title

Virivapanthu v. State of CA. et al.

Date October 26, 2018

Viriyapanthu contacted Bacon to inform him that he had a disability and was unable to
pay the award. (Id H 21.) He requested an accommodation for the disability. (Id)
Bacon informed Viriyapanthu that he could avoid a suspension of his license by
providing a doctor’s affidavit that he could not work at all. (Id.) Viriyapanthu informed
Bacon that he wished to declare bankruptcy to discharge the MFAA debt to prevent the
suspension of his license. (Id. f 22.) Bacon informed him that even if he discharged the
debt, the State Bar would continue to suspend his license. (Id) On August 23, 2016, the
State Bar Court granted Bacon’s motion to suspend Viriyapanthu’s license. (Id. f 45.)
On December 29, 2017, Viriyapanthu filed suit in this court alleging claims against
Bacon, Nelson, Green, the OCBA, and the State Bar. (Compl., Docket No. 1.) On June
7, 2018, the Court granted all defendants’ motions to dismiss without prejudice and
allowed Viriyapanthu to file an amended complaint. (Order, Docket No. 101.) On July
9, 2018, Viriyapanthu filed an amended complaint against Defendants alleging the
following causes of action: (1) a violation of Equal Protection under Title II of the
Americans with Disabilities Act (“ADA”) and (2) a violation of Due Process under Title
II of the ADA.
II. Legal Standard
A.

Federal Rule of Civil Procedure 12(b)(6)

Under Federal Rule of Civil Procedure 12(b)(6), a defendant may move to dismiss
for failure to state a claim upon which relief can be granted. Federal Rule of Civil
Procedure 8(a) requires that a complaint contain “a short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). A plaintiff must
state “enough facts to state a claim to relief that is plausible on its face.” Bell Atl. Corp.
w Twomblv. 550 U.S. 544, 570 (2007). A claim has “facial plausibility” if the plaintiff
pleads facts that “allow[] the court to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Ashcroft w Iqbal. 556 U.S. 662, 678 (2009).
In resolving a Rule 12(b)(6) motion under Twomblv. the Court must follow a two­
pronged approach. First, the Court must accept all well-pleaded factual allegations as
true, but “[tjhreadbare recitals of the elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Iqbal. 556 U.S. at 678. Second, assuming the
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 3 of 8

Case 8:17-cv-02266-JVS-Jr^ Document 156 Filed 10/26/18 P=>qe4of8 PagelD#:3923

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

8:17-CV-02266-JVS (DFMx)

Title

Virivapanthu v. State of CA. et al.

Date October 26,2018

veracity of well-pleaded factual allegations, the Court must “determine whether they
plausibly give rise to an entitlement to relief.” Id. at 679. This determination is contextspecific, requiring the Court to draw on its experience and common sense, but there is no
plausibility “where the well-pleaded facts do not permit the court to infer more than the
mere possibility of misconduct.” Id. For purposes of ruling on a Rule 12(b)(6) motion,
the court must “accept factual allegations in the complaint as true and construe the
pleadings in the light most favorable to the nonmoving party.” Manzarek w St Paul Fire
& Marine Ins. Co.. 519 F.3d 1025, 1031 (9th Cir. 2008). However, courts “are not bound
to accept as true a legal conclusion couched as a factual allegation.” Iqbal. 556 U.S. at
678 (quoting Twomblv. 550 U.S. at 555).
III. Discussion
A.

The Eleventh Amendment Bars Viriyapanthu’s Claims Against the State Bar and
Bacon.

The Eleventh Amendment to the Constitution provides that “[t]he Judicial power
of the United States shall not be construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United States by Citizens of another State,
or by Citizens or Subjects of any Foreign State.” Accordingly, private individuals
generally may not bring suit against nonconsenting States, their agencies, or their
departments in federal court. Kimel v. Fla. Bd. of Regents. 528 U.S. 62, 73 (2000);
Pennhurst State Sch. & Hosp. v. Halderman. 465 U.S. 89, 100 (1984). However,
Congress may abrogate states’ Eleventh Amendment immunity under limited
circumstances and permit suits by private individuals against states in federal court.
Kimel. 528 U.S. at 80. Additionally, states may waive their immunity by unequivocally
expressing their consent to do so. Pennhurst. 465 U.S. at 99.
Eleventh Amendment immunity extends to the State Bar. Hirsh v. Justices of
Supreme Court of State of Cal.. 67 F.3d 708, 715 (9th Cir. 1995). Therefore, the State
Bar is immune from Viriyapanthu’s claim unless Congress validly exercised its limited
authority to abrogate or California expressly waived its immunity. The same goes for
Bacon—Eleventh Amendment immunity “extends to the individual defendants acting in
their official capacities.” Hirsh. 67 F.3d at 715. The Supreme Court has explained that
“insofar as Title II creates a private cause of action for damages against the States for
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 4 of 8

Case 8:17-cv-02266-JVS-Jrr" Document 156 Filed 10/26/18 P^qe5of8 PagelD#:3924

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

8:17-cv-02266-JVS (DFMx)

Title

Virivapanthu v. State of CA. et al.

Date October 26, 2018

conduct that actually violates the Fourteenth Amendment, Title II validly abrogates state
sovereign immunity.” United States v. Georgia, 546 U.S. 151, 159(2006). Therefore,
this Court must assess whether Viriyapanthu’s first claim alleges conduct that violates not
only of Title II of the ADA but also the Fourteenth Amendment to the United State
Constitution.
Section 1 of the Fourteenth Amendment states:
All persons bom or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.
U.S. Const, amend. XIV, § 1. “To state a prima facie substantive or procedural due
process claim, one must, as a threshold matter, identify a liberty or property
interest protected by the Constitution.” United States v. Guillen-Cervantes. 748
F.3d 870, 872 (9th Cir. 2014). The Equal Protection Clause mandates that “all
persons similarly situated should be treated alike.” City of Cleburne v. Cleburne
Living Cent., 473 U.S. 432, 439 (1985). Differential treatment is presumed to be
valid so long as it is “rationally related to a legitimate state interest.” Id at 440.
However, state action that burdens a fundamental constitutional right or involves a
suspect classification requires heightened scmtiny. Id.
1. Equal Protection
Viriyapanthu sues the State Bar and Bacon under Title II of the ADA and
alleges that he was excluded from participation in the State Bar of California on the
basis of both race and disability. (FAC 16.) Count One alleges a violation of
Equal Protection based on racial animus. In particular, Viriyapanthu “alleges that
the underlying arbitration regarding Cesar Viveros (which ultimately led to the loss
of Plaintiff s license) was the result of racial animus and racial discrimination
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 5 of 8

Case 8:17-cv-02266-JVS-jr~ Document 156 Filed 10/26/18 P~^e6of8 PagelD#:3925

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

8:17-cv-02266-JVS (DFMx)

Title

Virivapanthu v. State of CA. et al.

Date

October 26,2018

which violated Plaintiffs Fourteenth Amendment Equal Protection rights.” (Id. ^
52.) Viriyapanthu states that “the State of California has an obligation to enforce
equal protection under the 14th Amendment, and prevent racial discrimination
from occurring.” (Id. Tf70.) Because Viriyapanthu does not allege any conduct by
the State Bar or Bacon that violates the Fourteenth Amendment, his claim as to the
State Bar is dismissed with prejudice.3
Importantly, Defendants note that even if Viriyapanthu had alleged facts of
racial animus and racial discrimination by the State Bar or Bacon, those claims still
would have failed under Title II of the ADA. To assert a claim under Title II of the
ADA, Viriyapanthu must allege:
(1) he “is an individual with a disability;” (2) he “is
otherwise qualified to participate in or receive the benefit
of some public entity’s services, programs, or activities;”
(3) he “was either excluded from participation in or denied
the benefits of the public entity’s services, programs, or
activities, or was otherwise discriminated against by the
public entity;” and (4) such exclusion, denial ofbenefits. or
discrimination was by reason of [his] disability.”
McGarv w City of Portland. 386 F.3d 1259, 1265 (9th Cir. 2004) (citing
Thompson v. Davis. 295 F.3d 890, 895 (9th Cir.2002) (per curiam), cert, denied.
538 U.S. 921 (2003)) (emphasis added); see also 42 U.S.C. § 12132 “[N]o
qualified individual with a disability shall by. reason of such disability ... be
subjected to discrimination by any such entity” (emphasis added). Even if
Viriyapanthu had alleged facts indicating that the State Bar or Bacon had somehow
racially discriminated against him, he still cannot show that such conduct, while
3 In his Opposition, Viriyapanthu argues that he has pled facts satisfying a prima facie case of
race discrimination, and the State Bar should be held accountable for the racial discrimination of the
OCBA. (Opp’n, Docket No. 148 at 11). The Court dismissed claims against the OCBA with prejudice.
(Order, Docket No. 146 at 9.) (“Because Viriyapanthu has not shown that the OCBA arbitrators acted in
excess of their jurisdiction by conducting the arbitration, quasi-judicial immunity applies.”) Thus, the
Court does not hold the State Bar accountable for the OCBA’s conduct when immunity applied to the
OCBA.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 6 of 8

Case 8:17-cv-02266-JVS-Jr~ ‘ Document 156 Filed 10/26/18 P-ne 7 of 8 Page ID #:3926

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

8:17-CV-02266-JVS (DFMx)

Title

Virivapanthu v. State of CA. et al.

Date October 26,2018

perhaps a violation of the Fourteenth Amendment, would be by reason of his
disability. Thus, Viriyapanthu cannot state a claim for a violation of Title II of the
ADA against the State Bar. The Court dismisses these claims with prejudice
accordingly.
2.

Due Process

In addition, Viriyapanthu alleges that the State Bar and Bacon violated his
due process rights because Viriyapanthu “made a request to Kenneth Bacon for
reasonable accommodation and was denied.” (FAC ^ 75.) Viriyapanthu alleges
that he “has a Constitutionally protected ‘Property Interest’ in his license to
practice law.” (Id f 76.) The other factual allegations related to his claim for
violation of due process relate to the OCBA’s conducting arbitration for which it
receives quasi-judicial immunity in this case, and the conduct of John Nelson and
Richard Green as individuals.
In its prior Order, the Court already found that “Viriyapanthu cannot state a
claim for a fourteenth amendment violation based on allegations that the State
Bar’s act of placing him on involuntary inactive status, after he failed to pay a
mandatory arbitration award, lacks a rational relationship to a legitimate state
interest.” (Order, Docket No. 101 at20n. 13.) Since the factual allegations
regarding the State Bar’s and Bacon’s conduct related to the due process claim are
the same as the ones already found deficient in the prior complaint, the Court
likewise dismisses this claim with prejudice.
IV. Conclusion
For the foregoing reasons, the Court grants Defendants’ motion to dismiss
with prejudice.
In a prior Order, the Court determined that it would await a ruling on this
motion before setting a timeline for Viriyapanthu to file an amended complaint as
to defendants Nelson and Green. (Docket No. 146) The Court now grants
Viriyapanthu thirty (30) days leave to amend his complaint only as to defendants
Nelson and Green and only as to the legal claims in the FAC if he shows that
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 7 of 8

Case 8:17-cv-02266-JVS-jr

Document 156 Filed 10/26/18 P ie 8 of 8 PagelD#:3927

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

8:17-cv-02266-JVS (DFMx)

Title

Viriyapanthu v. State of CA. et al.

Date

October 26,2018

Noerr-Pennington immunity does not apply. Viriyapanthu may not assert new
legal claims not present in the FAC against defendants Nelson and Green. Since
the Court has dismissed claims against the OCBA, the State Bar, and Bacon with
prejudice, Viriyapanthu may not replead claims against those defendants.

IT IS SO ORDERED.

oo
Initials of Preparer

CV-90 (06/04)

CIVIL MINUTES - GENERAL

gga

Page 8 of 8

Appendix 4

Case 8:17-cv-02266-JVS-JD" Document 146 Filed 09/24/18 P^e 1 of 17 PagelD#:3724
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

SACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Present: The Honorable

September 24, 2018

James V. Selna

Karla J. Tunis
Deputy Clerk

Not Present
Court Reporter

Attorneys Present for Plaintiffs:

Attorneys Present for Defendants:

Not Present

Not Present

Proceedings:

(IN CHAMBERS ) Order
1) Granting Defendant John Nelson’s Motion to Dismiss First
Amended Complaint (Fid 7-23-18, Dkt 117);
2) Denying Defendant John Nelson’s Motion to Strike Portions of
First Amended Complaint (Fid 7-23-18, Dkt 118);
3) Granting Defendant Richard Green’s Motion to Dismiss First
Amended Complaint (Fid 7-23-18, Dkt 120); and
4) Granting Defendant Orange County Bar Association’s Motion to
Dismiss First Amended Complaint (Fid 7-23-18, Dkt 121)

Before the Court are four motions.
First, Defendant Orange County Bar Association (“OCBA”) filed a motion to
dismiss Plaintiff Paul Viriyapanthu’s (“Viriyapanthu”) First Amended Complaint
(“FAC”) pursuant to Rules 12(b)(1) and 12(b)(6) of the Federal Rules of Civil Procedure.
(Mot., Docket No. 121.) Viriyapanthu filed an opposition. (Opp’n, Docket No. 80.) The
OCBA replied. (Reply, Docket No. 135.)
For the following reasons, the Court grants the OCBA’s motion to dismiss. i

1 Defendant OCBA also filed a request for judicial notice in support of its motion to dismiss.
(RJN, Docket No. 122.) Courts “may take [judicial] notice of proceedings in other courts, both within
and without the federal judicial system, if those proceedings have a direct relation to matters at issue.”
Bias v. Movnihan. 508 F.3d 1212, 1225 (9th Cir. 2007) (internal citations and quotation marks omitted).
All seven of the documents which the OCBA requests the Court to take judicial notice of fit into this
category. Thus, the Court grants the request for judicial notice.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 1 of 17

Case 8:17-cv-02266-JVS-JD'

Document 146 Filed 09/24/18 P~-e2ofl7 PagelD#:3725

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date

September 24,2018

Second, Defendant Richard Green (“Green”) filed a motion to dismiss
Viriyapanthu’s Complaint pursuant to Rule 12(b)(6) and 41(b). (Mot., Docket No. 120.)
Viriyapanthu filed an opposition. (Opp’n, Docket No. 134.) Green replied. (Reply,
Docket No. 139.)
For the following reasons, the Court grants Green’s motion to dismiss.
Third, Defendant John Nelson (“Nelson”) filed a motion to strike portions of the
FAC pursuant to Rule 12(f). (Mot., Docket No. 118.) Viriyapanthu filed an opposition.
(Opp’n, Docket No. 133.) Nelson replied. (Reply, Docket No. 137.)
For the following reasons, the Court denies Nelson’s motion to strike portions of
the FAC.
Fourth, Defendant Nelson filed a motion to dismiss Viriyapanthu’s Complaint
pursuant to Rules 12(b)(1) and 12(b)(6). (Mot., Docket No. 117.) Viriyapanthu filed an
opposition. (Opp’n, Docket No. 133.) Nelson replied. (Reply, Docket No. 136.)
For the following reasons, the Court grants Nelson’s motion to dismiss.2

I. Background
In 2007, Cesar Viveros (“Viveros”) contracted with attorney Kenneth Teebken
(“Teebken”) to perform certain immigration work. (FAC, Docket No. 112 f 28.)
Viveros made payments to Teebken for this work. (Id) In 2008, Teebken ceased
practicing law and entered into an agreement with Viriyapanthu to take over portions of
his immigration practice. (Id. ^ 30.) Viveros was contacted to allow Viriyapanthu to
continue prosecuting his immigration application. (Id.) Viveros was given an unsigned
2 Under Federal Rule of Evidence 201, the Court may take judicial notice of matters of public
record if the facts are not "subject to reasonable dispute." Lee v. City of Los Angeles, 250 F.3d 668,
688-89 (9th Cir. 2001); see Fed. R. Evid. 201(b). The Court takes judicial notice of the documents in
the Request for Judicial Notice ("RJN") Exhibit 1, Exhibit 2 pages 1-18, and Exhibits 4-8 pursuant to
Fed. R. Evid. 201. All of the documents in the these portions of Exhibits 1 and 2 in the RJN contain
facts that “can be accurately and readily determined from sources whose accuracy cannot reasonably be
questioned.” Fed. R. Evid. 201(b)(2). The RJN for Exhibit 3 is denied as moot, as the facts in the
exhibit were not considered.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 2 of 17

Case 8:17-cv-02266-JVS-jr

Document 146 Filed 09/24/18 P'-9 3 of 17 PagelD#:3726

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

S ACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date

September 24, 2018

retainer agreement. (Id.) In 2009, Viveros resigned from his employer, who was
sponsoring his immigration application. (Id. 1 32.) At that point, his employer sponsored
immigration application was not transferable. (Id.) Viveros wanted a refund of the fees
he had paid. Viveros contacted Nelson, who instructed him to complete and submit an
OCBA arbitration form. (Id 133.) Viveros initiated an attorney fee arbitration against
Viriyapanthu under California’s Mandatory Fee Arbitration Act3 (“MFAA”). (Id. 151;
FAC, Docket No. 112-3, Ex. 14.) Viriyapanthu alleges that OCBA members had an
agreement that members acting as arbitrators would rule in favor of other members in
order to prevent non-member attorneys from practicing law. (FAC 134.) Viriyapanthu
alleges that Nelson informed Viveros of the agreement. (Id. 135.) Nelson represented
Viveros during the arbitration proceeding. (Id 137.) In the proceeding, Viriyapanthu
asked Nelson if he had any pre-existing relationships with the arbitrators or the bar
association, which he denied. (Id 138.) Viriyapanthu alleges that this was a false
representation. /See id. 144.) In 2010, the OCBA arbitration panel awarded $4,313 to
Viveros. (FAC, Docket No. 112-3, Ex. 11.)
Viriyapanthu filed a petition to vacate the arbitration award, which was denied.
(FAC, Docket No. 112139.) Green represented Viveros in the state court proceedings.
(Id.) In April 2013, the trial court’s decision was affirmed on appeal. (Id; FAC, Docket
No. 112-3, Ex. 15.) Then Viriyapanthu filed a petition for review with the California
Supreme Court, which it denied. (Compl., Docket No. 1141.)
Viriyapanthu alleges that Green contacted Bacon to request the State Bar’s
involvement to enforce the arbitration award. (Id. 142.) Bacon presides over the State
Bar MFAA program. (Id 117.) Bacon’s assistant notified Viriyapanthu of his intent to
move to place him on involuntary inactive status and suspend his license. (Id 143.)
Viriyapanthu contacted Bacon to inform him that he had a disability and was unable to
pay the award. (Id. 121.) He requested an accommodation for the disability. (Id.)
Bacon informed Viriyapanthu that he could avoid a suspension of his license by

3 The MFAA authorizes the State Bar Board of Trustees to create a system and procedure for
arbitrating fee disputes in arbitrations conducted by local bar associations. Cal. Bus. & Prof. Code §
6200, et sea. When a MFAA arbitration is initiated by a client, fee arbitration is mandatory. Cal. State
Bar R. 3.501(A). The MFAA prohibits awarding affirmative relief in such arbitrations; local bar
association arbitrators may only award a refund of fees and costs previously paid. Cal. Bus. & Prof.
Code § 6203(a).
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 3 of 17

Case 8:17-cv-02266-JVS-JD

Document 146 Filed 09/24/18 P—e4ofl7 PagelD#:3727

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date

September 24,2018

providing a doctor’s affidavit that he could not work at all. (Id.) Viriyapanthu informed
Bacon that he wished to declare bankruptcy to discharge the MFAA debt to prevent the
suspension of his license. (Id 22.) Bacon informed him that even if he discharged the
debt, the State Bar would continue to suspend his license. (Id.) On August 23, 2016, the
State Bar Court granted Bacon’s motion to suspend Viriyapanthu’s license. (Id. 45.)
On December 29, 2017, Viriyapanthu filed suit in this court alleging claims against
Bacon, Nelson, Green, the OCBA, and the State Bar (collectively, “Defendants”).
(Compl., Docket No. 1.) On June 7, 2018, the Court granted Defendants’ motions to
dismiss without prejudice and allowed Viriyapanthu to file an amended complaint.
Order, Docket No. 101. On July 9, 2018, Viriyapanthu filed an amended complaint
alleging the following causes of action: (1) a violation of Equal Protection under Title II
of the Americans with Disabilities Act (“ADA”); (2) a violation of Due Process under
Title II of the ADA; (3) Disparate Treatment under 42 U.S.C. § 1981; (4) conspiracy in
restraint of trade in violation of the Sherman Act, 15 U.S.C. § 1, and the Clayton Act, 15
U.S.C. § 15; and (5) petition to compel arbitration under 9 U.S.C. § 4. (FAC, Docket No.
112).
II. Legal Standard
A.

Federal Rule of Civil Procedure 12(f)

Under Rule 12(f), a party may move to strike any insufficient defense or any
redundant, immaterial, impertinent, or scandalous matter. Fed. R. Civ. P. 12(f). A
motion to strike is appropriate when a defense is insufficient as a matter of law. Kaiser
Aluminum & Chem. Sales. Inc, v. Avondale Shipyards. Inc.. 677 F.2d 1045, 1057 (5th
Cir. 1982). The grounds for a motion to strike must appear on the face of the pleading
under attack, or from matters of which the Court may take judicial notice. SEC w Sands.
902 F. Supp. 1149, 1165 (C.D. Cal. 1995).
The essential function of a Rule 12(f) motion is to “avoid the expenditure of time
and money that must arise from litigating spurious issues by dispensing with those issues
prior to trial.” Fantasy. Inc, v. Fogertv. 984 F.2d 1524, 1527 (9th Cir. 1993), rev’d on
other grounds by Fogertv v. Fantasy. Inc.. 510 U.S. 517 (1994). “As a general
proposition, motions to strike are regarded with disfavor because [they] are often used as
delaying tactics, and because of the limited importance of pleadings in federal practice.”
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 4 of 17

Case 8:17-cv-02266-JVS-JP" Document 146 Filed 09/24/18 Paqe 5 of 17 PagelD#:3728

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date

September 24, 2018

Sands. 902 F. Supp. at 1165-66 (alteration in original) (internal quotation marks
omitted). Nonetheless, “[a]negations may be stricken as scandalous if the matter bears no
possible relation to the controversy or may cause the objecting party prejudice.” Talbot
^ Robert Matthews Distrib. Co.. 961 F.2d 654, 664 (7th Cir. 1992)
Therefore, courts frequently require the moving party to demonstrate prejudice
“before granting the requested relief, and ‘ultimately whether to grant a motion to strike
falls on the sound discretion of the district court.”’ Greenwich Ins. Co. v. Rodgers. 729 F.
Supp. 2d 1158, 1162 (C.D. Cal. 2010) (quoting Cal. Dep’t of Toxic Substances Control w
AlcoPaCiilnCi, 217 F. Supp.2d 1028, 1033 (C.D. Cal. 2002)).
B.

Federal Rule of Civil Procedure 12(b)(1)

Dismissal is proper when a plaintiff fails to properly plead subject matter
jurisdiction in the complaint. Fed. R. Civ. P. 12(b)(1). A “jurisdictional attack may be
facial or factual.” Safe Air for Everyone v. Meyer. 373 F.3d 1035, 1039 (9th Cir. 2004).
If the challenge is based solely upon the allegations in the complaint (a “facial attack”),
the court generally presumes the allegations in the complaint are true. Id.; Warren v. Fox
Family Worldwide. Inc.. 328 F.3d 1136, 1139 (9th Cir. 2003). If instead the challenge
disputes the truth of the allegations that would otherwise invoke federal jurisdiction, the
challenger has raised a “factual attack,” and the court may review evidence beyond the
confines of the complaint without assuming the truth of the plaintiffs allegations. Safe
Air. 373 F.3d at 1039. The plaintiff bears the burden of establishing subject matter
jurisdiction. Kokkonen v. Guardian Life Ins. Co. of Am.. 511 U.S. 375, 377 (1994).
C.

Federal Rule of Civil Procedure 12(b)(6)

Under Federal Rule of Civil Procedure 12(b)(6), a defendant may move to dismiss
for failure to state a claim upon which relief can be granted. Federal Rule of Civil
Procedure 8(a) requires that a complaint contain “a short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). A plaintiff must
state “enough facts to state a claim to relief that is plausible on its face.” Bell Atl. Corp.
v. Twomblv. 550 U.S. 544, 570 (2007). A claim has “facial plausibility” if the plaintiff
pleads facts that “allow[] the court to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009).
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 5 of 17

Case 8:17-cv-02266-JVS-JDF Document 146 Filed 09/24/18 Paae 6 of 17 PagelD#:3729

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date

September 24, 2018

In resolving a Rule 12(b)(6) motion under Twomblv. the Court must follow a two­
pronged approach. First, the Court must accept all well-pleaded factual allegations as
true, but “[t]hreadbare recitals of the elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Iqbal. 556 U.S. at 678. Second, assuming the
veracity of well-pleaded factual allegations, the Court must “determine whether they
plausibly give rise to an entitlement to relief.” Id. at 679. This determination is contextspecific, requiring the Court to draw on its experience and common sense, but there is no
plausibility “where the well-pleaded facts do not permit the court to infer more than the
mere possibility of misconduct.” Id For purposes of ruling on a Rule 12(b)(6) motion,
the court must “accept factual allegations in the complaint as true and construe the
pleadings in the light most favorable to the nonmoving party.” Manzarek v. St Paul Fire
& Marine Ins. Co.. 519 F.3d 1025, 1031 (9th Cir. 2008). However, courts “are not bound
to accept as true a legal conclusion couched as a factual allegation.” Iqbal. 556 U.S. at
678 (quoting Twomblv. 550 U.S. at 555).
D.

Federal Rule of Civil Procedure 9(b)

Under Federal Rule of Civil Procedure 9(b), a plaintiff must plead each element of
a fraud claim with particularity, Le., the plaintiff “must set forth more than the neutral
facts necessary to identify the transaction.” Cooper w Pickett. 137 F.3d 616, 625 (9th
Cir. 1997) (emphasis in original) (quoting In re GlenFed. Inc. Sec. Litig.. 42 F.3d 1541,
1548 (9th Cir. 1994)). A fraud claim must be accompanied by “the who, what, when,
where, and how” of the fraudulent conduct charged. Vess w Ciba-Geigv Corp. USA. 317
F.3d 1097, 1106 (9th Cir. 2003) (quoting Cooper. 137 F.3d at 627). “A pleading is
sufficient under rule 9(b) if it identifies the circumstances constituting fraud so that a
defendant can prepare an adequate answer from the allegations.” Moore w Kavport
Package Express. Inc.. 885 F.2d 531, 540 (9th Cir. 1989). Statements of the time, place,
and nature of the alleged fraudulent activities are sufficient, but mere conclusory
allegations of fraud are not. hi
III. Discussion
A.

Viriyapanthu’s New Allegations

In the first Order on Defendants’ motions to dismiss, the Court stated:
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 6 of 17

Case 8:17-cv-02266-JVS-JDP Document 146 Filed 09/24/18 Paae 7 of 17 PagelD#:3730

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date September 24, 2018

In sum, the Court grants Defendants’ motions to dismiss without
prejudice. Viriyapanthu may file an amended complaint
addressing the deficiencies identified in this order within thirty
(30) days. Specifically, Viriyapanthu may only replead claims
against:
The OCBA for violations of § 1983, conspiracy in restraint of
trade, and RICO conspiracy if he pleads facts showing it is
vicariously liable for the acts of its members or that it is not
entitled to quasi-judicial immunity for the acts of its arbitrators;
Nelson and Green for violations of § 1983, conspiracy in restraint
of trade, and RICO conspiracy, and for a RICO enterprise against
Nelson, if he pleads facts showing that their petitioning conduct
falls within the sham exception to the Noerr-Pennington doctrine.

(Order, Docket No. 101 at 20).
1.

New Claim Against OCBA

“[Ijnstead of realleging the previous § 1983, RICO and Sherman Act claims
against the OCBA, Plaintiff pleads a new claim against OCBA under 42 U.S.C. § 1981.”
(FAC, Docket No. 112.) Defendant OCBA argues that the claims alleged against the
OCBA have been waived because Viriyapanthu deliberately chose not to replead them
when the Court allowed him to do so. (Mot., Docket No. 132 at 9.) Further, Defendant
OCBA argues that Plaintiffs new claim should be dismissed because it exceeded the
scope of the Court’s leave to amend. (Id. at 9-10.) The Court agrees with Defendant
OCBA in part.
As to Viriyapanthu’s claims from the original complaint that have not been repled,
the Court deems them to have been waived. See Lacey v. Maricopa Ctv.. 693 F.3d 896,
928 (9th Cir. 2012) (“For claims dismissed with prejudice and without leave to amend,
we will not require that they be repled in a subsequent amended complaint to preserve
them for appeal. But for any claims voluntarily dismissed, we will consider those claims
to be waived if not repled.”). Petitioner’s FAC indicates that he is aware that the
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 7 of 17

Case 8:17-cv-02266-JVS-JDF Document 146 Filed 09/24/18 Pane 8 of 17 PagelD#:3731

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date

September 24, 2018

arguments from the original complaint that he has chosen not to replead would be waived
since he specifically preserves another issue for appeal. (FAC, Docket No. ^ 108.) The
Court, however, does not find that Plaintiffs new claim exceeded the scope of the
Court’s leave to amend. The Court’s Order did not prohibit pleading a new claim, but
rather specifies deficiencies for Viriyapanthu to address in an amended complaint.
2.

Motion to Strike New Allegations Against Defendant Nelson

Defendant Nelson filed a motion to strike portions of the FAC pursuant to Federal
Rule of Civil Procedure 12(f) on the basis that Viriyapanthu included new matter in
violation of the Court’s Order that is impertinent and immaterial, or that this matter is
otherwise scandalous. (Mot. to Strike, Docket No. 118 at 2, 5.) Specifically, Nelson
moves to strike allegations that Nelson and Greed posed as customers of Viriyapanthu
and posted derogatory and false information about Viriyapanthu on review websites. (Id
at 2.) Since the Court’s Order explicitly stated that the conspiracy in restraint of trade
claims could only be repled if Viriyapanthu could show that the sham exception to Noerr
Pennington applied, Nelson argues these allegations should be stricken because
Viriyapanthu repleads the claims without addressing the sham exception. (Id at 5.)
Instead he pursues a different basis for avoiding Noerr-Pennington immunity. (Id) The
Court disagrees.
While the Court Order does direct Viriyapanthu to plead facts showing that
Nelson’s and Green’s conduct falls within the sham exception, the Order also indicates
that Viriyapanthu may file an amended complaint addressing the deficiencies identified in
the Order. (Order, Docket No. 101 at 20.) Since the new claim addresses the overall
deficiency involved in the application of the Noerr-Pennington doctrine, the Court will
allow Viriyapanthu to replead the conspiracy in restraint of trade claims. Thus, the Court
does not find the allegations to be impertinent or immaterial. In addition, because the
Court does not find that the allegations bear “no possible relation to the controversy,” and
Nelson has not sufficiently shown that they may prejudice him, the Court declines to
exercise its discretion to strike the material as “scandalous” under Rule 12(f). See Talbot
w Robert Matthews Distrib. Co.. 961 F.2d 654, 664 (7th Cir. 1992). Therefore, Nelson’s
motion to strike is denied.
B.
CV-90 (06/04)

Viriyapanthu’s Claims Against the OCBA Must Be Dismissed.
CIVIL MINUTES - GENERAL

Page 8 of 17

Case 8:17-cv-02266-JVS-JDP Document 146 Filed 09/24/18 Pane 9 of 17 PagelD#:3732

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date

September 24, 2018

Viriyapanthu asserts a claim against the OCBA for disparate treatment in violation
of 42 U.S.C. § 1981. (FAC, Docket No. 112 f 6.) He alleges that the OCBA is a “labor
organization” that has been treating minorities disparately in comparison to Caucasian
members of the OCBA. (Id. ^ 90.) Viriyapanthu argues that Caucasian attorneys were
allowed to practice law without having to undergo MFAA arbitrations while minority
attorneys practicing in the same area of law as Caucasian attorneys were forced to
undergo MFAA arbitrations in front of the OCBA. QcL 90, 95.) Viriyapanthu further
alleges that this disparate treatment is part of a pattern and policy of discrimination
against racial minorities perpetrated by the OCBA, whereby the OCBA excludes minority
candidates from recommendations to the bench. Based on the facts alleged, Viriyapanthu
cannot state a claim upon which relief can be granted.
1.

The OCBA is entitled to quasi-judicial immunity.

Quasi-judicial immunity does not apply where a judicial officer acts “in the
complete absence of all jurisdiction.” Mireles. 502 U.S. at 12. The scope of a judicial
officer’s jurisdiction “must be construed broadly” where the issue is immunity. Stump w
Sparkman. 435 U.S. 349, 356 (1978). A complete absence of jurisdiction exists, for
example, where “a probate judge, with jurisdiction over only wills and estates, [tries] a
criminal case.” Id. at 357 n.7. But “if a judge of a criminal court should convict a
defendant of a nonexistent crime, he would merely be acting in excess of his jurisdiction
and would be immune.” Id. Viriyapanthu does not argue that the OCBA arbitrators did
not have jurisdiction to conduct the MFAA arbitration. He instead alleges that the OCBA
forced him to undergo arbitration while Caucasian attorneys were allowed to continue
practicing law without undergoing arbitration. (FAC, Docket No. 112 90, 95.)
Because Viriyapanthu has not shown that the OCBA arbitrators acted in excess of their
jurisdiction by conducting the arbitration, quasi-judicial immunity applies.
2.

The OCBA is not a “labor organization”

42 U.S.C. § 1981 protects the equal right of all persons to, among other things,
“make and enforce contracts.” 42 U.S.C. § 1981. This includes protections against
impermissible discrimination in the context of an employment relationship. See Manatt
v. Bank of Am., NA, 339 F.3d 792, 797 (9th Cir. 2003). “[t]he legal principles guiding a
court in a Title VII dispute apply with equal force in a § 1981 action.” Id.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 9 of 17

Case 8:17-cv-02266-JVS- inE Document 146 Filed 09/24/18 Page 10 of 17 Page ID

#:3733
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACY 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date

September 24, 2018

Viriyapanthu argues that the OCBA meets the definition of “labor organization”
under Title VII of the Civil Rights Act of 1964. (FAC, Docket No. 112 *[f 88.) 42 U.S.C.
§ 2000e(d) states:
The term “labor organization” means a labor organization engaged
m an industry affecting commerce, and any agent of such an
organization, and includes any organization of any kind, any
agency, or employee representation committee, group, association,
or plan so engaged in which employees participate and which
exists for the purpose, in whole or in part, of dealing with
employers concerning grievances, labor disputes, wages, rates of
pay, hours, or other terms or conditions of employment, and any
conference, general committee, joint or system board, or joint
council so engaged which is subordinate to a national or
international labor organization.
42 U.S.C. § 2000e(d) (emphasis added). The statute goes on to define “labor
organization engaged in an industry affecting commerce”:
A labor organization shall be deemed to be engaged in an
industry affecting commerce if
(1) it maintains or operates a hiring hall or hiring office which
procures employees for an employer or procures for employees
opportunities to work for an employer, or (2} the number of its
members (or, where it is a labor organization composed of other
labor organizations or their representatives, if the aggregate
number of the members of such other labor organization) is (A)
twenty-five or more during the first year after March 24, 1972,
or (B) fifteen or more thereafter, and such labor organization—
(1) is the certified representative of employees under the
provisions of the National Labor Relations Act, as amended, or
the Railway Labor Act, as amended;
(2) although not certified, is a national or international labor
organization or a local labor organization recognized or acting
as the representative of employees of an employer or employers
engaged in an industry affecting commerce; or
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 10 of 17

Case 8:17-cv-02266-JVS-inE Document 146 Filed 09/24/18 Page 11 of 17 Page ID
#:3734

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

S ACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date

September 24, 2018

(3) has chartered a local labor organization or subsidiary body
which is representing or actively seeking to represent
employees of employers within the meaning of paragraph (1) or
(2); or
(4) has been chartered by a labor organization representing or
actively seeking to represent employees within the meaning of
paragraph (1) or (2) as the local or subordinate body through
which such employees may enjoy membership or become
affiliated with such labor organization; or
(5) is a conference, general committee, joint or system board, or
joint council subordinate to a national or international labor
organization, which includes a labor organization engaged in an
industry affecting commerce within the meaning of any of the
preceding paragraphs of this subsection.
42 U.S.C. § 2000e(e) (emphasis added). The statute also defines “employer” as
“a person engaged in an industry affecting commerce who has fifteen or more employees
for each working day in each of twenty or more calendar weeks in the current or
preceding calendar year.” 42 U.S.C. § 2000e(b) (emphasis added).
Viriyapanthu alleges that OCBA falls under the definition of “labor organization”
because it maintains a hiring office that refers attorneys to potential clients and its
number of members exceeds twenty-five. (FAC, Docket No. 112 89. He also alleges
that “OCBA resolves disputes between employers and employees, in this case attorneys
and clients.” (Id.) Viriyapanthu indicates that he is a member of a protected class who
was performing in accordance with his employer’s legitimate expectations and
nonetheless suffered an adverse employment action in violation of § 1981. (Id.
92-94.)
Viriyapanthu’s argument fails because he confuses the attorney-client relationship
with an employer-employee relationship. The OCBA is not like the labor unions § 2000e
defines. It does not maintain a hiring office that procures employees for employers
because clients like Viveros that receive referrals are not employers. Viriyapanthu does
not allege that Viveros had fifteen or more employees working for him daily. While the
number of OCBA’s members may exceed twenty-five individuals, it does not satisfy the
second portion of the definition, which requires that it represent, or actively seek to
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 11 of 17

Case 8:17-cv-02266-JVS-^E Document 146 Filed 09/24/18 . Page 12 of 17 Page ID
#:3735
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date

September 24, 2018

represent, employees. See 42 U.S.C. § 2000e(e)(2). The OCBA’s fee arbitrations are
likewise not disputes between employers and employees because the clients are not
employers. Viriyapanthu’s analysis fails to indicate who his employer was when he was
“performing in accordance according to his employer’s legitimate expectations.” (FAC,
Docket No. 112 93.) Thus, the Court concludes that the OCBA is not a “labor
organization” for purposes of Title VII or § 1981.
Since Viriyapanthu has not otherwise alleged that he contracted with the OCBA in
any manner that would indicate disparate treatment in violation of § 1981, he has failed to
state a claim under 12(b)(6).4 The Court grants OCBA’s motion to dismiss with
prejudice accordingly.
C.

The Noerr-Pennington Doctrine Bars Viriyapanthu’s Claims Against
Nelson and Green.

The Noerr-Pennington doctrine provides absolute immunity for statutory liability
for conduct when petitioning the government for redress. Sosa v. DIRECTV. Inc.. 437
F.3d 923, 929 (9th Cir. 2006). Immunity under the Noerr-Pennington doctrine includes
communications made to the court during the course of a lawsuit. Such communications
include “[a] complaint, an answer, a counterclaim and other assorted documents and
pleadings, in which plaintiffs or defendants make representations and present arguments
to support their request that the court do or not do something.” IcL at 933 (citation
omitted). “Conduct incidental to a lawsuit, including a pre-suit demand letter, [also] falls
within the protection of the Noerr-Pennington doctrine.” Theme Promotions. Inc, w
News Am. Mktg. FSI. 546 F.3d 991, 1007 (9th Cir. 2008). The doctrine’s application is
not limited to lawsuits; it has also been applied to quasi-judicial proceedings. See, e.g..
Cal. Motor Transp. Co. v. Trucking Unlimited. 404 U.S. 508, 510-11 (1972) (holding
that Noerr-Pennington applies when petitioning state and federal agencies); Eurotech.
Inc, w Cosmos European Travels Aktiengesellschaft. 189 F. Supp. 2d 385, 392-93 (E.D.
Va. 2002) (holding that Noerr-Pennington applies to the initiation and maintenance of
World Intellectual Property Organization (“ WIPO”) arbitration proceedings, even though
WIPO is only a quasi-public entity, because it is part of the adjudicatory process and

4 Because Viriyapanthu has not shown that he is entitled to relief under § 1981, the Court does
not address his allegations that the OCBA engaged in a pattern or practice of discriminatory conduct nor
the remaining arguments as to the applicable statutes of limitations.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 12 of 17

Case 8:17-cv-02266-JVS-' T Document 146 Filed 09/24/18 Dage 13 of 17 Page ID
#:3736
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

S ACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date

September 24, 2018

warrants immunity).
The Ninth Circuit has recognized an exception to the Noerr-Pennington doctrine,
however. Noerr-Pennington immunity does not apply to conduct that, although
“ostensibly directed toward influencing governmental action, is a mere sham to cover
what is actually nothing more than an attempt to interfere” with the defendant’s business
practices. Sosa. 437 F.3d at 938 (citation omitted). As a result, ‘“[s]ham’ petitions don’t
fall within the protection of the doctrine.” Freeman v. Laskv. Haas & Cohler. 410 F.3d
1180, 1183-84 (9th Cir. 2005). The Ninth Circuit has identified three circumstances
when the so-called sham litigation exception applies:
first, where the lawsuit is objectively baseless and the
defendant’s motive in bringing it was unlawful; second,
where the conduct involves a series of lawsuits brought
pursuant to a policy of starting legal proceedings without
regard to the merits and for an unlawful purpose; and
third, if the allegedly unlawful conduct consists of
making intentional misrepresentations to the court,
litigation can be deemed a sham if a party’s knowing
fraud upon, or its intentional misrepresentations to, the
court deprive the litigation of its legitimacy.
Sosa. 437 F.3d at 938 (internal quotation marks and citations omitted).
Viriyapanthu argues that Noerr-Pennington does not apply here for two
reasons. First, he argues that Defendants Nelson and Green engaged in conduct
that falls outside of the “petitioning activities” protected under Noerr-Pennington
when they wrote defamatory and false statements regarding Viriyapanthu on public
websites such as Yelp. (FAC, Docket No. 112 ^ 105.) Second, he argues that the
sham exception to the Noerr-Pennington doctrine applies because Nelson and
Green made misrepresentations in prior proceedings that deprived the litigation of
its legitimacy. (Id. at 106-08.)
Viriyapanthu’s first argument fails under Rule 9(b). “A pleading is
sufficient under rule 9(b) if it identifies the circumstances constituting fraud so that
a defendant can prepare an adequate answer from the allegations.” Moore v.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 13 of 17

Case 8:17-cv-02266-JVS-: “ Document 146 Filed 09/24/18 ^agel4ofl7 Page ID
#:3737

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date

September 24, 2018

Kavport Package Express. Inc.. 885 F.2d 531, 540 (9th Cir. 1989). Here, the FAC
states:
As part of said efforts to put Plaintiff out of business,
Defendants Green and Nelson entered into a conspiracy to
put Plaintiff out of business. Said defendants, posing as
clients of Paul Viriyapanthu (when they were never clients)
began posting derogatory comments on attorney review
websites such as Yelp fal[s]ely claiming that Paul
Viriyapanthu had taken money from them and performed
no services. The agreement between Nelson and Green was
nonetheless a “conspiracy” to restrain trade and is
actionable under the Sherman/Clayton Acts. Plaintiff
alleges that Noerr-Pennington immunity does not attach to
writing defamatory and false statements regarding Plaintiff
on public websites.
(FAC, Docket No. 112 ^ 105.) The FAC contains a mere conclusory statement that
Nelson and Green entered into a conspiracy without including well-pleaded factual
allegations to support the conclusion that they had entered into an agreement, or
that the comments were derogatory and false. (Mot., Docket No. 120 at 6, 9.)
More importantly, it provides no indication of when these alleged defamatory posts
were made or what they stated. Defendants Nelson and Green, charged with
posing as customers of Viriyapanthu, simply would not enough information to
know what they are accused of posting nor which websites they are accused of
posting on. (Reply, Docket No. 139 at 3.) Thus, Viriyapanthu’s allegations with
respect to the defamatory posts do not meet the pleading standard required under
9(b).
In his second argument to avoid Noerr-Pennington immunity, Viriyapanthu
alleges that Nelson and Green intentionally made misrepresentations to deprive the
litigation of its legitimacy. Specifically, Viriyapanthu claims that Nelson was a
member of the OCBA who had “necessarily” previously served with presiding
arbitrator Sheri Honer, on other arbitrations. (FAC, Docket No. 112 at 112.)
Viriyapanthu indicates “It is not simply being a member of the same bar
association, but it is the working together on previous occasions that must be
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 14 of 17

Case 8:17-cv-02266-JVS-xr>'E Document 146 Filed 09/24/18 Page 15 of 17 Page ID

#:3738
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date

September 24, 2018

disclosed.” (Id) Viriyapanthu points to Gray v. Chiu to suggest that Nelson’s
membership in the OCBA and activities within it were required disclosures
because they could cause doubt as to the arbitrator’s impartiality. (FAC, Docket
No. 112 THI111-12.) See 212 Cal. App. 4th 1355,1364 (2013). While
Viriyapanthu recognizes that Code of Civil Procedure § 1281.9 does not apply
directly to MFAA Arbitration, he cites Baxter for the proposition that courts may
apply the same disclosure requirements under the CAA—in this case § 1281.9—to
the MFAA. (Opp’n, Docket No. 133 at 8.) See Baxter w Bock. 247 Cal. App. 4th
775, 785 (2016).
In Gray, a California appellate court held that the California Code of Civil
Procedure § 1281.9 of the California Arbitration Act (“CAA”) and the California
Rules of Court, Ethics Standards for Neutral Arbitrators in Contractual Arbitrations
(“Ethics Standards”) require “a neutral arbitrator to disclose that a lawyer in the
arbitration is a member of the administering ‘dispute resolution provider
organization.’” Id at 1358. The court vacated the arbitration award when an
arbitrator in a consumer arbitration case failed to disclose that one of the lawyers
for the parties was a member of the administering private dispute resolution
provider organization. Id. at 1364.
Nelson distinguishes this case from Gray, explaining that Gray did not
involve MFAA arbitration, but rather a consumer arbitration case. (Reply, Docket
No. 136 at 9.) Nelson indicates and the Ethics standard discussed in the
case—Standard 8—is likewise inapplicable to Viriyapanthu’s case because MFAA
arbitration is not a consumer arbitration. See Ethics Standards for Neutral
Arbitrators, Standard 2(d) (“Consumer arbitration” means an arbitration conducted
under a predispute arbitration provision contained in a contract.”). Nelson suggests
that MFAA arbitration conducted at a local bar association is not a “provider
organization” as defined by the Ethics standards, which requires the organization to
be a “nongovernmental entity that, or individual who, coordinates administers, or
provides the services of two or more dispute resolution neutrals.” Cal. R. Ct.
Ethics Standards for Neutral Arbitrators, Standard 2(g) (Reply, Docket No. 136 at
9. Nelson points out that the State Bar reserves authority over MFAA arbitrations
conducted at local bar associations and argues that a local bar association such as
the OCBA that conducts MFAA arbitration is not a “nongovernmental entity” as
contemplated by Ethics Standard 2(g). (Id)
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 15 of 17

Case 8:17-cv-02266-JVS-

Document 146 Filed 09/24/18 Page 16 of 17 Page ID
#:3739
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL

Case No.

SACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

Date

September 24, 2018

Viriyapanthu has not shown that the sham exception to the NoerrPennington Doctrine applies. While the OCBA conducts MFAA arbitration, it is
not a “provider organization” that requires membership disclosure in an arbitration.
Membership in the same professional organization does not create an impression of
possible bias. San Luis Obispo Bay Properties. Inc, w Pac. Gas & Elec. Co.. 28
Cal. App. 3d 556, 567 (1972). See Nemecek & Cole v. Horn. 208 Cal. App. 4th
641, 647 (2012) (“[T]he arbitrator’s participation in a [County Bar Association]
group comprised of 186 members, of which [the arbitrator] was one, does not
require disclosure.”). As Nelson points out, “membership in a local bar association
... is obviously very different than membership at a small, private alternative
dispute resolution” like the organization in Gray. (Nelson’s Reply, Docket No.
136 at 16. See Opp’n, Docket No. 104 at 4.)
Even if § 1281.9 (or its MFAA equivalent) applied in this case,
Viriyapanthu’s argument still fails. Section 1281.9 refers to disclosures that the
neutral arbitrator must make. CA Civ. Pro. Code § 1281.9(a). This section does
not require the representing attorney to make any disclosures reflecting on the
impartiality of the arbitrator—let alone a disclosure about membership in a local
bar association. Neither does the OCBA Rule of Procedure 7(E), which indicates
that information that a “person appointed as arbitrator must promptly disclose.”
(RJN, Docket No. 117-1, Ex. 2 at 8) (emphasis added.) Therefore, it would have
been unnecessary for Nelson to disclose membership in the OCBA under the
disclosure requirements of either § 1281.9 or OCBA Rule 7(E).
In addition, Viriyapanthu fails to meet the heightened pleading requirement
for fraud under Rule 9(b).5 Viriyapanthu alleges that Nelson and the other
arbitrators had relationships that would lead to bias beyond mere membership in
the OCBA, but he does not plead those facts with sufficient particularity.
Viriyapanthu alleges that Nelson used the OCBA offices/facilities and “necessarily
worked on other arbitrations” with Judge Honer. (FAC, Docket No. 112 ^ 112.)
But he does not indicate when, where, or how those offices and facilities were used
nor when Nelson would have worked on other arbitrations with Judge Honer.
5 Viriyapanthu argues that the circumstances surrounding these allegations constitute fraud. See
Opp’n to Nelson, Docket No. 133 at 24 (“John Nelson fraudulently concealed his membership in the
OCBA which would have resulted in vacatur of the arbitration award.).
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 16 of 17

Case 8:17-cv-02266-JVS-^

Document 146 Filed 09/24/18, ^age 17 of 17 Page ID
#:3740

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

SACV 17-2266 JVS(DFMx)

Title

Paul Viriyapanthu v. State of California, et al.

September 24, 2018

Thus, Viriyapanthu has not sufficiently alleged the circumstances constituting
fraud. See Vess v. Ciba-Geigv Corp. USA. 317 F.3d 1097, 1106 (9th Cir. 2003).
Because Viriyapanthu has failed to (1) plead facts that Defendants’ Nelson
and Green engaged in conduct that falls outside of Noerr-Pennington with
sufficient particularity with respect to the fraudulent reviews and (2) plead facts
showing that their petitioning conduct falls within the sham exception of NoerrPennington, the Court grants Nelson’s and Green’s motions to dismiss.6
IV. Conclusion
In sum, the Court grants Defendant OCBA’s motion to dismiss with
prejudice and without leave to amend.
The Court denies Nelson’s motion to strike, and grants Nelson’s and
Green’s motions to dismiss without prejudice. Viriyapanthu may file an
amended complaint addressing the deficiencies identified in this order with respect
to Defendants Nelson and Green. The Court will set the deadline once it rules on
the State Bar’s motion to dismiss. Viriyapanthu may not plead new legal claims
against Defendants Nelson or Green; he may only replead the claims in this FAC if
he shows that Noerr-Pennington immunity does not apply.

IT IS SO ORDERED.
oo
Initials of Preparer

kjt

6 Because Viriyapanthu’s claims against Nelson and Green are barred by Noerr-Pennington
immunity, the Court does not address the remaining arguments as to the applicable statutes of
limitations.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 17 of 17

Additional material
from this filing is
available in the
Clerk's Office.

